NO.

IN THE

SUPREME COURT OF THE UNITED STATES

Ivan Dario Obregon
Petitioner,

VERSUS

UNITED STATES OF AMERICA,
Respondent

PETITION FOR WRIT OF CERTIORARI
CERTIFICATE OF SERVICE

I, Thomas Berg, a CJA-appointed counsel representing petitioner under the Criminal
Justice Act of 1964, do hereby certify that, pursuant to Rule 29.4(a), a copy of the this Petition for
Writ of Certiorari and a copy of the Motion to Proceed In Forma Pauperis in the above entitled
cause were mailed on March 9, 2021, certified mail - return receipt requested, to the Office of the
Solicitor General of the United States, Room 5616, Department of Justice, 950 Pennsylvania

Avenue., N.W., Washington, DC 20530-0001.

Respectfully submitted,

/s/Thomas Berg
Thomas S. Berg

Mallett Saper Berg, L.L.P.
4306 Yoakum Blvd., Suite 400
Houston, TX 77006
713-236-1900

tom berg@msblawyers.com
Attorney for Petitioner
(Counsel of Record)
